                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street, N.E.
                                                     Washington, DC 20002



                  Amtrak Employee Makes Unauthorized Fuel Purchases
                                Case Number 08-090
                                  August 25, 2010

A source reported that unauthorized fuel purchases were being made by an Amtrak employee
with a Wright Express credit card. Agents substantiated this allegation through review of
documents and interviews. The employee resigned and agreed to a Pre-trial Intervention with
the Mercer County Prosecutor’s Office. The employee was ordered by the court to pay $5,760 in
restitution to Amtrak.
